Report No. 13-35                                                                                                           September 27, 2013
                                          Appalachian Regional Commission
                                                           Evaluation Report


                                                           Table of Contents

         Results of Evaluation .................................................................................... 1

         Areas for Improvement ................................................................................ 2
            Area for Improvement 1: The agency should implement ongoing scanning to detect
            vulnerabilities.................................................................................................................. 2

            Area for Improvement 2: The agency should remediate current potential risks. .......... 3

         Management Comments and Our Analysis ............................................... 5
         Objective, Scope and Methodology ............................................................. 5




                                                                        -i-
                       Appalachian Regional Commission
                                   Evaluation Report


                              Results of Evaluation
The purpose of this evaluation was to answer the question:

       Is the ARC network's perimeter defense effective?

Yes. The ARC network’s perimeter defense is effective.

A penetration test is an attempt to breach a network and gain unauthorized access to its
resources. On July 1, 2013, we conducted a penetration test of the ARC network using
public information. Our search for public information on the ARC network servers
identified one potential targets, and the office of CIO provided its network range of 16 IP
addresses to limit the scope of the scan so it did not impact non-ARC equipment. We
used software to detect servers and their listening service ports, and then we scanned
these servers for vulnerabilities.

The ARC’s computer network, the ARC network, has over 100 systems, consisting of
servers, desktops, laptops, printers, phones, and network infrastructure devices. Every
computer is connected to the network with a unique IP (Internet Protocol) address. For
example, a desktop PC on the ARC network might have an address like 192.168.50.40. A
typical Windows PC could have more than 20 listening ports. Each port serves a
function; for instance, an Internet browser connects to port 80 to request web pages from
a server, and email servers use port 25 to transfer messages. It would be normal for a
network of 100 systems to present 2,000 listening ports, all potential targets for attack.

The goal of perimeter defense is to minimize the number of exposed ports, known as the
“attack surface.” A network with no open ports is not a network: open ports are required
to communicate. Devices such as firewalls are configured to limit the number of ports
exposed to the Internet, and newer technologies such as Intrusion Detection and
Protection Systems (IDPS) can provide additional protection by detecting and blocking
scans meant to identify open ports.

Several effective characteristics of the ARC network’s perimeter defense include the
following:

   •   The ARC network’s firewalls effectively limit the exposure of internal systems to
       the Internet. Inside the ARC network, 5,000 or more service ports might be
       actively listening and responding to requests. From the Internet, only 8 systems
       and 17 ports were discovered in our scan of the ARC network.
   •   We were unable to exploit the systems found to gain unauthorized access to the
       ARC network.
   •   One system allowed registration for access. When we attempted to create a user
       account, the system denied this request because the details didn’t match some


                                           -1-
                       Appalachian Regional Commission
                                  Evaluation Report


       requirement. The preregistration process deployed by ARC effectively helps
       prevent unauthorized access.

In summary, the ARC network’s perimeter defense effectively prevented our intrusion
attempts.

An effective perimeter defense is a significant component of a complete network security
program. An attacker can exploit a network in a number of ways. In general, she can
attack the network perimeter as we did, or she can bypass the perimeter by tricking a user
into letting her in. Means of accomplishing this could be as simple as having a user open
a malicious email or visit an infected website, or by leaving an infected USB drive to be
found by an employee near the front door of the building. While the ARC network’s
current perimeter defense is currently effective, continuous attention and improvement
are required to ensure that it remains effective in the future.

Our penetration testing did reveal several potential areas for improvement: the agency
should implement ongoing scanning to detect vulnerabilities, and it should remediate
current potential risks vulnerabilities. These areas for improvement are detailed below.



                            Areas for Improvement

                            Area for Improvement 1:
      The agency should implement ongoing scanning to detect vulnerabilities.


Networks and their systems evolve over time, either deliberately or by chance. Secure
systems installed today will become insecure over time due to newly discovered
vulnerabilities in their underlying operating system or application software. Furthermore,
any time changes are made to the existing environment, vulnerabilities can be
inadvertently introduced. The best means of mitigating this risk is through vulnerability
scanning, on both a periodic basis and on-demand any time a change is made to the
environment.

Even though it is licensed to use software that can perform vulnerability scanning of its
perimeter, the ARC is not currently performing this function. The penetration test we
performed as part of this evaluation found several potential vulnerabilities. Because
previous tests were not performed, it was not known how long these systems had been
vulnerable. The longer systems remain vulnerable, the more likely it is that they will be
exploited. Regular testing would have identified these vulnerabilities and enabled timely
remediation.


                                           -2-
                       Appalachian Regional Commission
                                   Evaluation Report


In order to execute the mission of the agency, senior management must remain informed
of risks to their underlying systems. Regular perimeter scans are a critical source of
information describing risks to an agency’s information systems.

Recommendation 1: Perform scheduled, routine scanning of the perimeter on at least a
monthly basis.

Recommendation 2: Perform perimeter scans after new hardware or software is
introduced to the ARC perimeter network.




                               Area for Improvement 2:
                  The agency should remediate current potential risks.


The penetration test we performed identified several potential risks in the agency’s
webservers. We were unable to exploit them using the tools and methods within our
scope of testing, but a determined attacker could use these vulnerabilities to exploit the
ARC’s systems or its users.

The Commission’s web time and attendance system allows users to enter their username
and passwords in clear text, instead of requiring encryption, as seen below:




                                            -3-
                        Appalachian Regional Commission
                                  Evaluation Report


This makes it possible for someone to intercept these credentials, and acquire usernames,
passwords, and unauthorized access to the system. The Commission should encrypt the
submission of passwords on its websites to eliminate this risk to its users and systems.

In our scan of the network perimeter, we identified several ports responding to the
Internet that were not necessary for business communications. These ports were found
on the Commission’s on the previously mentioned web time and attendance system and




its firewall product:



Responding ports provide potential entry-points to the network for authorized and
unauthorized users alike. The Commission should limit responding ports to those
necessary for business communications, and block access to those not needed for that
purpose.

The ARC has a responsibility to control access to its data, and to protect users of its
public websites from malicious activity. It is possible to improve security by
reconfiguring the existing devices to remediate the issues found in the perimeter scan.

Recommendation 3: Implement SSL to encrypt access to the web time and attendance
webserver.

Recommendation 4: Block access to ports not necessary for business communications.




                                           -4-
                       Appalachian Regional Commission
                                  Evaluation Report


              Management Comments and Our Analysis
On July 26th, 2013, management provided comments on the draft evaluation report.
They concurred with our assessment that the perimeter network defense was effective,
and that the defense could be further improved through ongoing vulnerability scanning
and the remediation of current potential risks. They subsequently provided management
decisions that would address each of the four recommendations.

At the time of the final report, the Commission was arranging for a vendor to conduct
periodic scans of its Internet-facing network. It was also continuing to attempt to encrypt
the Time and Attendance website.



                    Objective, Scope and Methodology
Objective:
       Is the ARC network's perimeter defense effective?

Scope:
       This evaluation included all externally available wired nodes on The ARC
       network. The device list included but was not limited to all servers, workstations,
       routers, email gateways and firewalls. The access types attempted included login
       attempts for the purposes of information gathering, privilege escalation, and
       establishment of jumping points to other areas of The ARC network
       infrastructure.


Methodology:

   1. From an unfiltered IP address, performed unauthenticated network and device
      discovery using a toolset to include but not limited to Nessus, Wireshark, and
      other applications within the BackTrack/Kali tool suite.
   2. Reviewed and analyzed protocol encryption types, as applicable.
   3. Performed automated and manual login attacks.




                                           -5-
